LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 5, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

CITY OF BAKERSFIELD, AARON STRINGER V. LESLIE LARAY CRAWFORD

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on March 5,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Emily T. Kuwahara, Esq.
CROWELL & MORING LLP
515 South Flower St., 40th Floor
Los Angeles, CA 90071
Email: EKuwahara@crowell.com
Ben J. Meiselas, Esq.
GERAGOS & GERAGOS
644 South Figueroa Street
Los Angeles, CA 90017-3411
Email: ben@geragos.com
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 5th day of March 2020.

